                   Office of Inspector General
                                   https://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues. These
evaluations focus on preventing fraud, waste, or abuse and promoting economy, efficiency, and
effectiveness of departmental programs. To promote impact, OEI reports also present practical
recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With investigators
working in all 50 States and the District of Columbia, OI utilizes its resources by actively
coordinating with the Department of Justice and other Federal, State, and local law enforcement
authorities. The investigative efforts of OI often lead to criminal convictions, administrative
sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
The OIG Portfolio offers new recommendations to improve program vulnerabilities detected in
prior audits, evaluations, and investigations. The Portfolio synthesizes OIG’s body of work in a
program area and identifies trends in payment, compliance, oversight, or fraud vulnerabilities
requiring priority attention and action to protect the integrity of Department of Health and
Human Services (HHS) programs and the beneficiaries they serve.
                              EXECUTIVE SUMMARY
The Office of Inspector General’s (OIG) body of work examining Medicaid personal care
services (PCS) has found significant and persistent compliance, payment, and fraud
vulnerabilities that demonstrate the need for Centers for Medicare & Medicaid Services (CMS)
to take a more active role with States to combat these issues.

In 2011, Medicaid costs for PCS totaled approximately $12.7 billion, a 35-percent increase since
2005. Several Federal court decisions and Department of Health and Human Services policy
initiatives aimed at providing more home and community-based options to Medicaid
beneficiaries contribute to the increase in PCS use. As more and more State Medicaid programs
explore home care options like PCS, it is critical that adequate safeguards exist to prevent fraud,
waste, and abuse in PCS and other important home care benefits.

This document summarizes OIG’s PCS work and, on the basis of the analysis of this work in the
aggregate, offers recommendations to improve the integrity of Medicaid PCS.


SUMMARY OBSERVATIONS
Improper Payments Linked to Lack of Compliance. As of August 2012, OIG has produced 23
audit and evaluation reports since 2006 focusing on PCS. Although the objectives,
methodologies, and scopes of these audits and evaluations differed, in many instances OIG found
that PCS payments were improper because the services:
       were not provided in compliance with State requirements,
       were unsupported by documentation indicating they had been rendered,
       were provided during periods in which the beneficiaries were in institutional stays
       reimbursed by Medicare or Medicaid, and/or
       were provided by PCS attendants who did not meet State qualification requirements.

Inadequate Controls To Ensure Appropriate Payment and Quality of Care. OIG work has
demonstrated that existing program safeguards intended to ensure medical necessity, patient
safety, and quality and prevent improper payments were often ineffective. In one or more audits
or evaluations, OIG found:
       inadequate controls in the prior authorization processes (i.e., the processes to determine
       whether the beneficiaries qualify for PCS services before they are rendered);
       lack of prepayment controls (e.g., electronic edits to deny claims for PCS services that
       overlap with institutional stays);
       inconsistent standards for, and monitoring of, the qualifications of PCS attendants; and
       problematic billing practices (e.g., claims that lack details regarding dates of service
       and/or the identity of the PCS attendants providing services).




                                                                                                      i
PCS Fraud Is a Growing Concern. OIG’s Office of Investigations and many State Medicaid
Fraud Control Units report that the increasing volume of fraud involving PCS has become a top
concern. The most commonly reported schemes involve conspiracies between PCS attendants
and Medicaid beneficiaries to submit claims for services that either were never provided or were
not allowed under program rules. Investigators have noted that self-directed Medicaid service
models (i.e., those in which beneficiaries have decisionmaking authority over certain services
and take direct responsibility for managing their services with the system of available supports),
especially those that allow beneficiaries significant control over the selection and payment of
PCS attendants, are particularly vulnerable to these fraud schemes.1

RECOMMENDATIONS TO IMPROVE PROGRAM INTEGRITY
On the basis of the body of OIG’s PCS work, we recommend that CMS take the following
actions:

1. More fully and effectively use authorities available under section 1102 and Title XIX of the
   Social Security Act to improve regulatory oversight and monitoring of Medicaid PCS
   programs. Toward that end, CMS should promulgate regulations to:

       a. Reduce significant variation in State PCS attendant qualification standards and the
          potential for beneficiary exposure to unqualified PCS attendants by establishing
          minimum Federal qualification standards applicable to all PCS reimbursed by
          Medicaid.

       b. Improve CMS’s and States’ ability to monitor billing and care quality by requiring
          States to (1) either enroll all PCS attendants as providers or require all PCS attendants
          to register with their State Medicaid agencies and assign each attendant a unique
          identifier and (2) require that PCS claims include the specific date(s) when services
          were performed and the identity of the rendering PCS attendants.

       c. Reduce significant variation in States’ PCS laws and regulations by creating or
          expanding Federal requirements and issuing operational guidance for claims
          documentation, beneficiary assessments, plans of care, and supervision of attendants.

2. Issue guidance to States regarding adequate prepayment controls. For example, CMS should
   identify a list of needed controls, including the necessary claims edits to prevent
   inappropriate PCS payments during periods when beneficiaries are receiving institutional
   care. CMS should also offer design instructions to better ensure the operability of
   prepayment controls.

3. Consider whether additional controls are needed to ensure that PCS are allowed under
   program rules and are provided.

4. Take action to provide States with data suitable for identifying overpayments for PCS claims
   during periods when beneficiaries are receiving institutional care paid for by Medicare or
   Medicaid. While we understand that CMS makes Medicare data available to States, more
   could be done to ensure that Medicare data are compatible with States’ systems; that States
   have the capacity to store the data necessary to identify improper Medicaid payments; and


                                                                                                  ii
   that States may crosswalk Medicare and Medicaid data to identify potential instances of
   fraud, waste, and abuse.

5. Address recommendations contained in prior OIG reports that remain unimplemented. (See
   page 13 for a list of some prior recommendations related to PCS that remain
   unimplemented.)




                                                                                             iii
TABLE OF CONTENTS
BACKGROUND ............................................................................................................................1
          Personal Care Services (PCS), A Primer .............................................................................1

SUMMARY OBSERVATIONS ...................................................................................................2

   IMPROPER PAYMENTS LINKED TO LACK OF COMPLIANCE WITH
   DOCUMENTATION, PLANS OF CARE, MEDICAL SUPERVISION, AND
   QUALIFICATION REQUIREMENTS .......................................................................................2
          Interviews With Medicaid Beneficiaries Reveal Quality-of-Care Concerns .......................3
   INADEQUATE CONTROLS TO ENSURE APPROPRIATE PAYMENT AND QUALITY
   OF CARE .....................................................................................................................................3
          Inadequate Controls to Prevent PCS Payments During Institutional Care ..........................3
          Insufficient Qualification Safeguards ..................................................................................4
          Billing Policies That Impair Program Integrity Efforts .......................................................4
                      Dates of Services Not Identified on Claims .............................................................4
                      PCS Attendants Not Identified on Claims ...............................................................5
   PCS FRAUD IS A GROWING CONCERN ...............................................................................5
          Fraud Example: Owner of PCS Agency Sentenced for Defrauding Medicaid Out of More
          Than $650,000 .....................................................................................................................5

RECOMMENDATIONS TO IMPROVE PROGRAM INTEGRITY .................................... 6

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE ........... 8

APPENDIX A – Personal Care Services – Related Authorities Under Title XIX of the
Social Security Act .......................................................................................................................10

APPENDIX B – List of Related OIG Reports ...........................................................................11

APPENDIX C – List of Unimplemented Recommendations for Personal Care Services .....13

APPENDIX D – Agency Comments ...........................................................................................14

ENDNOTES..................................................................................................................................21




                                                                                                                                              iv
BACKGROUND
Personal care services (PCS) provide assistance to the elderly, people with disabilities, and
individuals with chronic or temporary conditions so that they can remain in their homes and
communities. PCS are currently offered as either a State plan optional benefit or through various
demonstrations and waivers2 in all 50 States. (See Appendix A for related authorities.) States
that provide PCS through State plans
must comply with the general Medicaid
program requirements outlined in                PERSONAL CARE SERVICES, A PRIMER
section 1902 of the Social Security Act.
                                             What are PCS? PCS consist of nonmedical services
States providing PCS through                 supporting activities of daily living, including
demonstration or waiver authorities          bathing, dressing, light housework, money
must adhere to the terms of the              management, meal preparation, and transportation.
application approved by CMS.                 PCS are provided to vulnerable care-dependent
                                             persons, typically those who are elderly or infirm
Recent data suggest rapid growth in          and/or have disabilities.
PCS. In 2011, Medicaid costs for PCS
totaled approximately $12.7 billion, a       Who provides PCS? Typically, an attendant
35-percent increase since 2005.              provides PCS. In many States, PCS attendants work
Additionally, the U.S. Department of         for personal care agencies, which are enrolled in the
                                             Medicaid program and bill for services on the
Labor, Bureau of Employment
                                             attendants’ behalf. Some States require attendants to
Statistics, in its Occupational Outlook      register or enroll with the State, but most do not.
Handbook, 2010-11 Edition, projected         States may define specific qualification requirements
that employment of personal and home         for attendants, such as minimum age, education, and
health aides will grow by 46 percent by      health status.
2018, much faster than the average of
10 percent for all occupations.              What are coverage rules for PCS? Medicaid
                                             covers PCS for eligible individuals through
A key factor in this increase was the        Medicaid State plan options and/or through
United States Supreme Court decision         Medicaid waiver and demonstration authorities
in Olmstead v. L.C. 527 U.S. 581             approved by CMS. (See Appendix A for a list of
                                             authorities.) Medicare does not provide
(1999), which held that unjustified
                                             reimbursement of PCS.
institutionalization of people with
disabilities is a violation of the           Under Federal law, PCS must be provided in a home
Americans With Disabilities Act. The         or another location specified by the State and must
Department of Health and Human               follow a plan of care subject to approval and/or
Services has promoted States’ efforts to     authorized by the State Medicaid agency. Although
provide Medicaid beneficiaries who are       there are no Federal requirements for PCS
elderly or have disabilities with the        attendants, States are required to develop
choice of remaining in their homes and       qualifications or requirements for attendants to
communities, as opposed to moving to         ensure quality of care.
nursing homes or other institutional
care options. For example, the Patient Protection and Affordable Care Act (ACA) of 2010
removed barriers to providing home and community-based services by allowing additional State
plan amendment options, increasing States’ timeframes to elect and renew PCS as a care option,
and streamlining processes for accessing home and community-based services. The ACA also

                                                                                                     1
provided additional funding for programs supporting home care goals, such as the Money
Follows the Person demonstration and the Community First Choice Option programs.

As of August 2012, the Office of Inspector General (OIG) has produced 23 audit and evaluation
reports since 2006 on PCS, which consistently have found payment, compliance, and oversight
vulnerabilities, as well as quality-of-care concerns. (See Appendix B for a list of related PCS
audit and evaluation reports and Appendix C for a list of prior OIG recommendations related to
PCS that remain unimplemented by CMS and States.) Federal investigators and State Medicaid
Fraud Control Units (MFCUs) have also observed an increase in suspected PCS fraud. What
follows are summary observations based on vulnerabilities detected in OIG audits, evaluations,
and investigations, as well as recommendations for corrective actions based on the body of
OIG’s PCS work.

OIG work referenced throughout this document was conducted in accordance with the
professional standards applicable to audits, evaluations, and investigations.


SUMMARY OBSERVATIONS
Improper Payments Linked to Lack of Compliance With Documentation, Plans
of Care, Medical Supervision, and Qualification Requirements
As of August 2012, OIG has completed seven statewide audits and one citywide audit of PCS
payments. Another statewide audit is in progress. Since 2009, seven of the eight completed
audits have identified over $582 million in questioned costs. Table 1 lists the error rates,3
questioned costs, and set-aside costs4 from each of the eight completed audits:

Table 1: Error Rates, Questioned Costs, and Set-Aside Costs for PCS in Seven States and One
City
State                         Error Rate5    Questioned Costs6   Set Aside Costs7
                              (Percentage)
Maryland8                     0%             $0                  $0
                     9
West Virginia                 1.00%          $19,830             $0
         10
Nebraska                      2.31%          $168,652            $4,482,438
                11
New Jersey                    40.35%         $145,405,192        $0
           12
New York                      31.78%         $100,335,472        $15,325,689
New York City13               18.01%         $275,327,274        $0
                         14
North Carolina                16.31%         $41,734,368         $0
Washington15                  20.17%         $19,438,693         $30,323,597


The seven audits that found overpayments noted several types of deficiencies:
        Hours claimed in the billings were not supported by documentation.16
        PCS services failed to meet State assessment and/or prior authorization requirements.17
        PCS services did not meet State supervision requirements.18
        PCS attendants did not meet State qualification and/or training requirements.19


                                                                                                  2
       Claims included periods during which beneficiaries received institutional care covered
       under Medicare or Medicaid.20

These States often failed to provide oversight to prevent improper payments in several ways,
including:
       insufficient resources to adequately monitor their PCS programs, especially once they
       began to experience substantial growth;21
       inadequate controls in the States’ prior authorization processes (i.e., the processes to
       determine whether beneficiaries qualify for services before they are rendered);22
       ineffectiveness of accrediting organizations to which the States delegated authority to
       ensure compliance with applicable State regulations;23
       failure to conduct monitoring site visits of PCS agencies that employed attendants,
       leaving the role of oversight largely to
       beneficiaries;24 and
                                                                    INTERVIEWS WITH
       inadequate controls to prevent paying improper           MEDICAID BENEFICIARIES
       PCS claims, including instances when PCS were           REVEAL QUALITY-OF-CARE
       claimed while the beneficiaries received                         CONCERNS
       institutional care.25
                                                               In interviews conducted in
Separately, a 2010 OIG evaluation examining PCS in 10          connection with two OIG audits of
States over a 1-year period found that 18 percent of paid      PCS in New York City and New
claims for Medicaid PCS in a universe totaling $724            York State, the majority of sampled
million were inappropriate because the required                Medicaid beneficiaries interviewed
                                                               (40 of the 65 beneficiaries in New
qualifications for PCS attendants were undocumented.26
                                                               York City and 38 of the 55 in New
The most often undocumented qualifications were age,           York State) reported to OIG quality-
education, and the results of background checks.               of-care problems with their PCS
Although the insufficient documentation may be an              attendants. The most serious
indicator that PCS attendants or agencies did not              allegations included physical abuse
maintain or have ready access to documents containing          or threats of abuse, property theft,
this information, it could signal that the sampled PCS         and patient abandonment. One
attendants did not meet State qualifications designed to       beneficiary reported that an
ensure patient safety and high quality of care.                attendant abandoned her on two
                                                               occasions – in the street and in the
Inadequate Controls To Ensure Appropriate                      subway – because the attendant’s
                                                               shift had ended.
Payment and Quality of Care
                                                               Without proper control and oversight
Inadequate Controls To Prevent PCS Payments During         mechanisms, unqualified attendants
Institutional Care. PCS are generally not eligible for     could expose beneficiaries to
Federal financial participation when provided to a         substandard quality of care and
beneficiary receiving services as an inpatient or a        injury.
resident at a hospital, nursing home, or other
institution.27 However, OIG work has documented many instances when PCS providers received
payment during periods when the beneficiary purportedly received institutional care service.

An audit examining paid PCS claims over a 30-month period in Nebraska identified 464
instances in which PCS providers billed and were improperly paid for PCS during the

                                                                                                      3
beneficiaries’ inpatient hospital stays.28 A 2008 evaluation of PCS payments in the first quarter
of 2006 found that the five States reviewed paid nearly $500,000 for PCS on dates when
beneficiaries were institutionalized in Medicaid-funded facilities.29 This review cited problems
with the States’ claims payment systems, including unsuccessful prepayment edits, which could
have contributed to the estimated $11 million in potentially improper payments over the 3-month
period.30

Numerous OIG and MFCU investigations have focused on potentially false PCS claims during
periods of beneficiary institutionalization, resulting in convictions of PCS attendants and their
employers.31

Insufficient Qualification Safeguards. To be eligible for Federal financial participation, PCS
must be provided by a qualified individual.32 Although there are no Federal requirements that
specify qualifications for PCS attendants, States are required to specify qualifications or
requirements for PCS attendants to ensure quality of care. A 2006 evaluation of State
requirements for PCS attendants revealed 301 different sets of requirements nationwide.33 The
most common requirements were background checks; training; supervision; minimum age;
health status (e.g., that the attendant test negative for tuberculosis); and education (e.g.,
attainment of a high school diploma). The report noted that the wide variation among States and
within the same State may make it difficult to ensure compliance with requirements.
Additionally, a 2010 evaluation of compliance with qualification requirements in 10 States found
that PCS attendant qualifications were undocumented for 18 percent of Medicaid PCS claims.34
Additional Federal regulations that set minimum qualifications could improve consistency
among States and better ensure that beneficiaries receive PCS from qualified PCS attendants.

Billing Policies That Impair Program Integrity Efforts. OIG work on PCS has identified two
distinct problems with State billing policies. First, PCS claims often do not specify the dates
when the services were actually provided, and second, PCS claims do not identify the attendant
that provided the service(s).

Dates of Services Not Identified on Claims. The 2008 evaluation revealed that the claims data in
three of five States reviewed could not be used to accurately identify overlapping claims. These
States allow PCS providers to submit claims through a process commonly referred to as “span
billing.” In general, span billing allows providers to submit one claim requesting payment for
multiple instances of PCS provided over a range of dates (week or month), without specifying
dates when the services were actually provided. The inability to identify service dates on claims
presents a significant oversight challenge because the State cannot determine whether, for
example, PCS overlap with dates when the beneficiaries received institutional care services.35

The problematic consequences of span billing were seen in an evaluation focusing on PCS
claims for services in excess of 24 hours per day and between 16 and 24 hours per day.36 This
review examined PCS claims in 5 States and identified 871 paid claims in 4 States that were for
services provided in excess of 24 hours per day to a single beneficiary. It also identified over
2,000 other paid claims that totaled or nearly totaled 24 hours per day, a volume of services that
could raise program integrity concerns.

During ad hoc interviews with MFCU directors in two States that allow span billing, the
directors reported that they have recommended to their Medicaid agencies that span billing be
prohibited. These MFCU directors reported that span billing prevents their investigators from
obtaining necessary evidence to pursue fraud cases against PCS attendants and agencies. In
                                                                                                     4
some PCS fraud cases, investigators rely on evidence that compares the dates of services listed
on Medicaid claims to dates when the PCS attendants were engaged in conflicting activities (e.g.,
other job, travel). When specific dates of service are not included on claims, fraud investigations
could be significantly hindered. Additional Federal regulations requiring that all States require
the dates of services on claims would improve Federal and State program integrity efforts.

PCS Attendants Not Identified on Claims. Most States
do not require PCS attendants to register with the State
Medicaid programs and therefore do not assign PCS                    FRAUD EXAMPLE
attendants unique identifiers to be included on
claims.37 As a result, conducting attendant-specific           OWNER OF PCS AGENCY
data mining and analysis in such States is difficult.             SENTENCED FOR
Further, in the absence of information identifying the       DEFRAUDING MEDICAID OUT
attendants, States are challenged to implement edits          OF MORE THAN $650,000
that would prevent payments or trigger prepayment
reviews of claims associated with high-risk or               As a result of a joint investigation by
excluded PCS attendants.38 Similarly, the absence of         Federal and State officials, John
the identity of the attendant on PCS claims forms            Alemoh Momoh, owner and operator
creates significant challenges to law enforcement            of Hopecare Service, Inc., was
                                                             sentenced to 2 years of incarceration
efforts to investigate potentially fraudulent claims.
                                                             and ordered to pay $656,876 in
For this reason, numerous MFCUs have recommended             restitution to Medicaid.
to their State Medicaid agencies that PCS attendants
be assigned unique identifiers that would appear on          Between May 2007 and March 2008,
claims forms.39 If States registered or enrolled PCS         Momoh submitted claims that
attendants and required attendant identifiers on claims,     inflated the number of PCS hours
State and Federal program integrity staff could search       provided to Medicaid beneficiaries.
for and follow up on questionable billing patterns           Momoh also submitted false claims
(e.g., billings for more than 24 hours in a day or for       for services that were not rendered,
other impossible or improbable numbers of hours) and         were provided by an unqualified
implement edits to prevent improper claims.                  individual, and were not medically
                                                             necessary.
PCS Fraud Is a Growing Concern

OIG and the MFCUs have noted an increasing amount of fraud cases involving PCS. As of
2010, MFCUs had more open investigations involving PCS fraud than any other type of
Medicaid service, with more than 1,000 investigations nationwide. In a recent survey, MFCUs
cited fraud occurring in home and community-based settings, consisting mostly of PCS fraud, as
a top fraud concern affecting their States.40

Cases investigated by OIG’s Office of Investigations (OI) and discussions with multiple MFCUs
indicate that the most common fraud schemes involve conspiracies between PCS attendants and
beneficiaries. In a growing number of instances, the beneficiaries are being charged as co-
conspirators because they accepted cash or other benefits in exchange for participating in the
fraud. These cases appear to be especially prevalent in States using CMS-approved home and
community-based service waivers that allow relatives of beneficiaries to be their PCS
attendants.41 In many of these cases, investigation reveals that the beneficiaries do not appear to
have the medical conditions or physical limitations documented on their assessments and
therefore are not eligible for PCS.42


                                                                                                       5
Additionally, OI and the MFCUs are encountering a new fraud scenario in States with self-
directed Medicaid service models (i.e., those in which beneficiaries have decisionmaking
authority over certain services and are directly responsible for managing their services with the
system of available supports) and particularly in those States that send payment for PCS services
directly to the beneficiaries instead of the attendants.43 Although State Medicaid programs in
these States require beneficiaries to give the payments to the PCS attendants, cases in which
beneficiaries submit false claims for services that were never provided are now being prosecuted.
In such cases, the beneficiaries typically forge the PCS attendants’ names and then deposit the
checks into their own bank accounts.44 In States allowing self-directed PCS models, additional
controls may be necessary to ensure that services both are necessary and are provided.

Fraud is often difficult to detect by reviewing documentation alone. The majority of the
overpayments identified in OIG audits are the consequence of missing documentation that
services were performed, assessments were conducted, training and qualification requirements
were met, and plans of care were completed. In contrast, fraud is often proven by showing that
the existing documentation of such activities by PCS attendants and providers is false (see the
fraud example on the previous page).

At present, most fraud cases involving PCS come to the attention of law enforcement only
through referrals from individuals who know the persons committing the acts. However, if the
availability and quality of PCS data were improved, data could be analyzed to identify and
follow up on aberrancies and questionable billing patterns. For example, PCS attendants and
agencies that commit fraud often bill for impossibly or improbably large volumes of services; for
services that conflict with one another (e.g., a PCS attendant purports to provide many hours of
services to multiple beneficiaries on the same dates); or for services that could not have been
performed as claimed because of geographical distances between beneficiaries purportedly
served by the same PCS attendant on the same day. If claims contained more specific details,
including the exact dates of service and the identity of the PCS attendants, such irregular billings
could be more easily and systematically discovered through claims analysis by State program
integrity units.


RECOMMENDATIONS TO IMPROVE PROGRAM INTEGRITY
On the basis of the body of OIG’s PCS work, we recommend that CMS take the following
actions:

1. More fully and effectively use authorities available under section 1102 and Title XIX of the
   Social Security Act to improve regulatory oversight and monitoring of Medicaid PCS
   programs. Toward that end, CMS should promulgate regulations to:

       a. Reduce significant variation in State PCS attendant qualification standards and the
          potential for beneficiary exposure to unqualified PCS attendants by establishing
          minimum Federal qualification standards applicable to all PCS reimbursed by
          Medicaid. For example, CMS could establish minimum age and education standards
          and requirements for screening attendants (e.g., criminal background and Federal and


                                                                                                   6
           State exclusion checks). These standards could be informed by work currently being
           conducted by the CMS-funded National Direct Service Workforce Resource Center
           (the Resource Center), which plans to develop a set of core competencies for workers
           providing long-term services. CMS could also consider the results of its National
           Background Check program, which has awarded selected States with funding to
           design a comprehensive national background check program for jobs involving direct
           patient care.

       b. Improve CMS’s and States’ ability to monitor billing and care quality by requiring
          States to (1) either enroll all PCS attendants as providers or require all PCS attendants
          to register with their State Medicaid agencies and assign each attendant a unique
          identifier and (2) require that PCS claims include the specific date(s) when services
          were performed and the identity of the rendering PCS attendants.

       c. Reduce significant variation in States’ PCS laws and regulations by creating or
          expanding Federal requirements and issuing operational guidance for claims
          documentation, beneficiary assessments, plans of care, and supervision of attendants.

2. Issue guidance to States regarding adequate prepayment controls. For example, CMS should
   identify a list of needed controls, including the necessary claims edits to prevent
   inappropriate PCS payments during periods when beneficiaries are receiving institutional
   care. CMS should also offer design instructions to better ensure the operability of
   prepayment controls.

3. Consider whether additional controls are needed to ensure that PCS are allowed under
   program rules and are provided. For example, as part of its State Plan and waiver application
   process, CMS could require States to identify specific safeguards to prevent the fraud
   schemes highlighted in this report.

4. Take action to provide States with data suitable for identifying overpayments for PCS claims
   during periods when beneficiaries are receiving institutional care paid for by Medicare or
   Medicaid. While we understand that CMS makes Medicare data available to States, more
   could be done to ensure that Medicare data are compatible with States’ systems; that States
   have the capacity to store the data necessary to identify improper Medicaid payments; and
   that States may crosswalk Medicare and Medicaid data to identify potential instances of
   fraud, waste, and abuse.

5. Address recommendations contained in prior OIG reports that remain unimplemented. (See
   Appendix C for a list of some prior recommendations related to PCS that remain
   unimplemented.)




                                                                                                  7
AGENCY COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
We made five recommendations in the report. CMS concurred with our fourth recommendation
but did not indicate whether it concurred with our first, second, or third recommendations. Our
fifth recommendation related to addressing prior unimplemented OIG recommendations. CMS
indicated that it will incorporate those recommendations when developing action plans to address
recommendations from this report. CMS generally agreed that more needs to be done at the
Federal and State level to ensure appropriate billing for provided PCS.

More specifically, with regard to recommendation 1.a., CMS noted that in 2011 it funded the
development of the Road Map of Core Competencies for the Direct Service Workforce; the direct
service workforce will include PCS attendants. CMS expects this project to produce a set of
service worker competencies by 2014, which CMS will then encourage States to adopt for use in
their PCS programs. The agency also stated that it will continue to work with States on the
National Background Check program.

We support CMS’s work to develop core competencies that include minimum standards that any
PCS attendant must have in order to be considered qualified to render PCS. However, on the
basis of OIG’s work documenting that States and local jurisdictions have developed over 300
PCS attendant requirements in the absence of Federal qualification requirements, we remain
concerned that States will not adopt any core competencies unless CMS requires them to do so.
For that reason and because of the overpayments for unqualified PCS attendants identified in
prior work, we continue to recommend that CMS establish minimum Federal qualification
standards applicable to all Medicaid-reimbursed PCS.

In relation to recommendation 1.b. (1), CMS stated that it will explore and identify the potential
costs and benefits of States’ either enrolling all PCS attendants as providers or requiring that
attendants register with their State Medicaid agencies. In addition, CMS indicated that it would
explore and identify improvements to claims documentation that facilitate accurate payments and
the detection of fraud and abuse. We reiterate that CMS’s and States’ ability to monitor billing
and care quality could be improved by assigning PCS attendants unique identifiers through either
an enrollment or registration process and by requiring these identifiers, as well as the specific
dates of service, on claims. We continue to recommend that CMS promulgate related
regulations.

In relation to recommendation 1.c., CMS outlined regulations that are part of the Community
First Choice (CFC) benefit that the agency reported would standardize requirements for both
care plans and assessments. CMS noted that the same requirements appear in its proposed
regulations for home and community-based services provided under sections 1915(c) and 1915(i)
of the Social Security Act. We appreciate that in new programs, such as CFC, CMS is working
to address some of the issues we have raised in this report. We ask that in its final management
decision, CMS provide further explanation as to how the regulations it referenced will serve to
standardize States’ care plans and assessments. We augmented our report to recommend that
CMS issue guidance outlining expectations regarding how the regulations CMS referenced

                                                                                                8
should be implemented to achieve standardization and improvements in claims documentation,
beneficiary assessments, plans of care, and supervision of attendants.

In relation to our second recommendation, CMS stated that it intends to issue guidance to remind
States of their obligation to review their own data to identify payment and utilization aberrations.
CMS also stated that it will begin using its own data sources to better identify claims outliers,
review those findings regularly with States, provide technical assistance to States on
implementing those practices, share the findings of our report with States, and work with
national long-term-care associations to improve program integrity in Medicaid PCS. We would
appreciate CMS’s providing a timetable for implementation of each of these activities in its final
management decision.

In relation to our third recommendation, CMS stated that it plans to provide States with guidance
on educating PCS providers on the program integrity issues identified in our report. CMS
indicated it will also consult with stakeholders and attempt to create and publish guidance for
States about program integrity controls through various technical assistance vehicles. We
request that in its final management decision, CMS provide a timeline for development and
completion of these activities. Furthermore, CMS identified several fraud protections it believes
currently exist in its self-directed waiver service models. While we agree that the existing
protections CMS described are important, they have not succeeded in preventing the
vulnerabilities found in our reviews, audits, and investigations. We continue to recommend that
CMS consider additional controls to ensure that PCS are allowed under program rules and are
provided.

CMS concurred with our fourth recommendation and indicated that it will work with the
Medicare and Medicaid Coordination Office to identify additional data-sharing approaches with
States for dually eligible beneficiaries to prevent overpayments for PCS claims.

In response to our fifth recommendation, CMS stated that prior OIG recommendations that are
contained in Appendix C appear to be largely encompassed within the first four recommendations
in this report. CMS therefore said that it will incorporate its response to the prior
recommendations as part of its actions to address our first through fourth recommendations. OIG
continues to consider the prior recommendations as unimplemented and encourages CMS to take
actions that address all recommendations in this report as well as our prior recommendations.
OIG will consider whether specific actions taken by CMS address the PCS issues and
recommendations identified in this report and the reports listed in Appendix C.
We ask that in its final management decision, CMS more clearly indicate whether it concurs with
our recommendations 1(a)-(c), 2, 3, and 5.




                                                                                                   9
APPENDIX A –Personal Care Services – Related
Authorities Under Title XIX of the Social Security Act

States can provide personal care services (PCS) to eligible Medicaid beneficiaries through State
plan and waiver programs. States that provide PCS through State plan programs must comply
with the general Medicaid program requirements in section 1902 of the Social Security Act.
States can also provide PCS through 1115 demonstration; 1915(a) and 1915(b) managed care
and freedom of choice; 1915(c) home and community-based services waiver; 1915(j) self-
directed personal assistant services; 1915(k) community first choice programs; and 1915(i),
which allows PCS under a State amendment option.




                                                                                               10
APPENDIX B - List of Related OIG Reports
Report                                                                            Issue Date
States’ Requirements for Medicaid-Funded Personal Care Service Attendants         December 2006
(OEI-07-05-00250)

Review of Personal Care Services Claimed by the Center for Living and             October 2007
Workings, Inc. (A-01-06-00011)

Payments Made in Error for Personal Care Services During Institutional Stays      August 2008
(OEI-07-06-00620)

Medicaid-Funded Personal Care Services in Excess of 24 Hours per Day              October 2008
(OEI-07-06-00621)

Partnership Review of Medicaid Claims Processed by Cerebral Palsy and Stavros     November 2008
for Personal Care Attendant Services Provided to Beneficiaries during Inpatient
Stays (A-01-08-00001)

Review of Medicaid Personal Care Services Claims Made by Providers in New         June 2009
York City (A-02-07-01054)

Review of Medicaid Personal Care Service Claims Submitted by Independence         April 2010
First, Inc. and Claimed by Wisconsin From July 1, 2006, Through June 30, 2008
(A-05-09-00093)

Review of Medicaid Personal Care Service Claims Submitted by Dane County          September 2010
Department of Human Services and Claimed by Wisconsin From July 1, 2006,
Through June 30, 2008 (A-05-10-00018)

Review of Medicaid Personal Care Service Claims Submitted by Clarity Care,        October 2010
Inc., and Claimed by Wisconsin From July 1, 2006, Through June 30, 2008
(A-05-10-00019)

Review of Medicaid Personal Care Services Claims Made by Providers in New         October 2010
York State (A-02-08-01005)

Review of Personal Care Services Provided by Tri-State Home Health and            November 2010
Equipment Services, Inc., in the District of Columbia (A-03-08-00207)

Inappropriate Claims for Medicaid Personal Care Services (OEI-07-08-00430)        December 2010

Review of Federal Reimbursement Claimed by North Carolina for Medicaid            February 2011
Personal Care Services Claims Submitted by Shipman Family Home Care, Inc.
(A-04-09-04041)




                                                                                                   11
Review of New Mexico Medicaid Personal Care Services Provided by Ambercare     March 2011
Home Health (A-06-09-00062)

Review of Medicaid Personal Care Services Claimed by Washington State          June 2011
(A-09-09-00030)

Review of Medicaid Personal Care Services Claims Submitted by Providers in     June 2011
North Carolina (A-04-10-04003)

Nebraska Medicaid Payments for Personal Care Services (A-07-10-03152)          July 2011

Review of Personal Care Services Claimed Under Maryland’s Medicaid State       November 2011
Plan (A-03-11-00200)

Review of Medicaid Personal Care Claims Submitted by Providers in New Jersey   December 2011
(A-02-09-01002)

Review of New Mexico Medicaid Personal Care Services Provided by Heritage      May 2012
Home Healthcare (A-06-09-00063)

Review of New Mexico Medicaid Personal Care Services Provided by Clovis        June 2012
Homecare, Inc. (A-06-09-00117)

Review of Louisiana Medicaid Personal Care Services Provided by American       June 2012
Pride Caregivers, LLC (A-06-09-00107)

West Virginia Complied With Certain Federal Requirements for Most of the       June 2012
Personal Care Services Claimed for Its Aged and Disabled Waiver Program
(A-03-11-00205)




                                                                                               12
APPENDIX C – List of Certain Unimplemented
Recommendations for Personal Care Services*

Recommendations To CMS

1. Work with States to reduce erroneous Medicaid payments for personal care services (PCS)
   provided during institutional stays (Payments Made in Error for Personal Care Services
   During Institutional Stays, OEI-07-06-00620) (CMS concurred.)

2. Enforce existing Federal Medicaid payment policies prohibiting Medicaid reimbursement for
   PCS provided over a range of dates if the range includes dates on which the beneficiary was
   institutionalized (Payments Made in Error for Personal Care Services During Institutional
   Stays, OEI-07-06-00620) (CMS did not concur.)

3. Work with States to ensure that agencies and attendants are aware of attendant qualification
   and documentation requirements and that Medicaid claims for PCS provided by attendants
   with undocumented qualifications are not paid (Inappropriate Claims for Medicaid Personal
   Care Services, OEI 07-08-00430) (CMS concurred.)


Recommendations To Specific Medicaid State Agencies

4. Implement prepayment controls to monitor PCS claims for compliance with State
   requirements (Review of Personal Care Services Provided by Tri-State Home Health and
   Equipment Services, Inc., in the District of Columbia, A-03-08-00207) (The Department of
   Health Care Finance concurred.)

5. Provide more effective monitoring of PCS attendants’ compliance with qualification
   requirements (Review of Personal Care Services Provided by Tri-State Home Health and
   Equipment Services, Inc., in the District of Columbia, A-03-08-00207) (The Department of
   Health Care Finance concurred.)

6. Strengthen controls by developing policies and procedures for more substantive
   documentation and prepayment and postpayment claim review to ensure that PCS claims are
   reviewed and paid in accordance with Federal and State requirements (Nebraska Medicaid
   Payments for Personal Care Services, A-07-10-03152) (The Department of Health & Human
   Services concurred.)

*This list does not include overpayment recovery recommendations included in some OIG reports.




                                                                                                 13
APPENDIX D – Agency Comments




                               14
15
16
17
18
19
20
ENDNOTES
1
 Additional information on self-directed Medicaid services is available at http://www.medicaid.gov/Medicaid-
CHIP-Program-Information/By-Topics/Delivery-Systems/Self-Directed-Services.html. Accessed on April 24, 2012.
2
 Section 1115 waivers give States flexibility to design and improve the Medicaid and Children’s Health Insurance
Program (CHIP) programs. Waivers let States test new or existing ways to deliver and pay for program coverage.
The Centers for Medicare & Medicaid Services (CMS) conducts and sponsors a number of innovative demonstration
projects to test and measure the effect of potential program changes. Additional information on section 1115 waivers
and demonstrations is available at http://www.medicaid.gov/Medicaid-CHIP-Program-Information/By-
Topics/Waivers/1115/Section-1115-Demonstration.html. Accessed on August 15, 2012.
3
  We calculated the error rate for each review by dividing the point estimate for the estimated value of unallowable
items by the value of the sampling frame. These amounts can be found in the sampling methodology within the
appendix of each report.
4
 The questioned costs and the set-aside costs are the lower limits of 90-percent confidence intervals. These
amounts can be found in the sampling methodology within the appendix of each report.
5
  We calculated the error rate for each review by dividing the point estimate for the estimated value of unallowable
items by the value of the sampling frame. These amounts can be found in the sampling methodology within the
appendix of each report.
6
  ''Questioned cost'' means a cost that is questioned by OIG because of (1) an alleged violation of a provision of a
law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure
of funds; (2) a finding that at the time of the audit, such cost is not supported by adequate documentation; or (3) a
finding that the expenditure of funds for the intended purpose is unnecessary or unreasonable .
7
 Set-aside costs are generally costs that we believe are in error but the magnitude of which may not be statistically
measurable or for which the criteria for determining the costs’ propriety were not clearly set forth by the
administering agency.
8
 Review of Personal Care Services Claimed Under Maryland’s Medicaid State Plan (A-03-11-00200), November
2011.
9
  West Virginia Complied With Certain Federal Requirements for Most of the Personal Care Services Claimed for
Its Aged and Disabled Waiver Program (A-03-11-00205), June 2012.
10
     Nebraska Medicaid Payments for Personal Care Services (A-07-10-03152), July 2011.
11
     Review of Personal Care Claims Submitted by Providers in New Jersey (A-02-09-01002), December 2011.
12
 Review of Medicaid Personal Care Services Claims Made by Providers in New York State (A-02-08-01005),
October 2010.
13
  Review of Medicaid Personal Care Services Claims Made by Providers in New York City (A-02-07-01054), June
2009.
14
  Review of Medicaid Personal Care Services Claims Submitted by Providers in North Carolina (A-04-10-04003),
June 2011.
15
     Review of Medicaid Personal Care Services Claimed by Washington State (A-09-09-00030), June 2011.
16
  Review of Medicaid Personal Care Services Claims Made by Providers in New York State (A-02-08-01005),
October 2010; Review of Medicaid Personal Care Services Claimed by Washington State (A-09-09-00030), June
2011; Review of Medicaid Personal Care Services Claims Submitted by Providers in North Carolina (A-04-10-
04003), June 2011; Nebraska Medicaid Payments for Personal Care Services (A-07-10-03152), July 2011; Review
of Personal Care Claims Submitted by Providers in New Jersey (A-02-09-01002), December 2011; and West
Virginia Complied With Certain Federal Requirements for Most of the Personal Care Services Claimed for Its Aged
and Disabled Waiver Program (A-03-11-00205), June 2012.


                                                                                                                    21
17
  Review of Medicaid Personal Care Services Claims Made by Providers in New York State (A-02-08-01005),
October 2010; Review of Medicaid Personal Care Services Claimed by Washington State (A-09-09-00030), June
2011; Review of Medicaid Personal Care Services Claims Submitted by Providers in North Carolina (A-04-10-
04003), June 2011; Nebraska Medicaid Payments for Personal Care Services (A-07-10-03152), July 2011; and
Review of Personal Care Claims Submitted by Providers in New Jersey (A-02-09-01002), December 2011.
18
  Review of Medicaid Personal Care Services Claims Made by Providers in New York City (A-02-07-01054), June
2009; Review of Medicaid Personal Care Services Claims Made by Providers in New York State (A-02-08-01005),
October 2010; Review of Medicaid Personal Care Services Claims Submitted by Providers in North Carolina (A-04-
10-04003), June 2011; and Review of Personal Care Claims Submitted by Providers in New Jersey (A-02-09-
01002), December 2011.
19
  Review of Medicaid Personal Care Services Claims Made by Providers in New York State (A-02-08-01005),
October 2010; Review of Medicaid Personal Care Services Claimed by Washington State (A-09-09-00030), June
2011; Review of Medicaid Personal Care Services Claims Submitted by Providers in North Carolina (A-04-10-
04003), June 2011; and Review of Personal Care Claims Submitted by Providers in New Jersey (A-02-09-01002),
December 2011.
20
     Nebraska Medicaid Payments for Personal Care Services (A-07-10-03152), July 2011.
21
  Review of Medicaid Personal Care Services Claims Submitted by Providers in North Carolina (A-04-10-04003),
June 2011.
22
     Review of Personal Care Claims Submitted by Providers in New Jersey (A-02-09-01002), December 2011.
23
     Ibid.
24
  Nebraska Medicaid Payments for Personal Care Services (A-07-10-03152), July 2011. Failure to conduct onsite
reviews of providers was also identified as a cause of payment of improper claims in New York State and New York
City. Review of Medicaid Personal Care Services Claims Made by Providers in New York City (A-02-07-01054),
June 2009, and Review of Medicaid Personal Care Services Claims Made by Providers in New York State (A-02-08-
01005), October 2010.
25
  Review of Medicaid Personal Care Services Claimed by Washington State (A-09-09-00030), June 2011; Nebraska
Medicaid Payments for Personal Care Services (A-07-10-03152), July 2011; and West Virginia Complied With
Certain Federal Requirements for Most of the Personal Care Services Claimed for Its Aged and Disabled Waiver
Program (A-03-11-00205), June 2012.
26
     Inappropriate Claims for Medicaid Personal Care Services (OEI-07-08-00430), December 2010.
27
  For State Plan PCS, see Social Security Act § 1905(a)(24); 42 CFR § 440.167; regarding waivers, see 42 §
441.301(b)(1)(ii); 42 CFR § 440.70(c).
28
     Nebraska Medicaid Payments for Personal Care Services (A-07-10-03152), July 2011.
29
     Payments Made in Error for Personal Care Services During Institutional Stays (OEI-07-06-00620), August 2008.
30
  Ibid. The review also identified a large number of overpayments for PCS during dates when the beneficiaries were
institutionalized in Medicare-paid facilities. The report recommended that CMS explore ways to ensure that State
Medicaid programs have complete information on Medicare institutionalizations for dually eligible beneficiaries.
31
  A list of convictions may be found in OIG’s compilation of “State Enforcement Actions.” Available at
https://oig.hhs.gov/fraud/enforcement/state/index.asp. Accessed on April 24, 2012.
32
  For State Plan PCS, see Social Security Act § 1905(a)(24); 42 CFR § 440.167; regarding waivers, see 42 CFR §
441.301(b)(1)(ii); 42 CFR § 440.70(c).
33
  States’ Requirements for Medicaid-Funded Personal Care Service Attendants (OEI-07-05-00250), December
2006. The report noted that at the time of the review, there were 238 separate programs through which States were
providing personal care services: 31 State plans and 207 Medicaid waivers.
34
     Inappropriate Claims for Medicaid Personal Care Services (OEI-07-08-00430), December 2010.

                                                                                                                22
35
  For example, if a beneficiary was institutionalized from October 1 through October 7 and 10 hours of PCS were
billed for the date range October 3 through October 9, the State cannot determine whether the PCS were provided
between October 3 and October 6, when the beneficiary was institutionalized, or between October 7 and October 9,
when the beneficiary was at home.
36
     Medicaid-Funded Personal Care Services in Excess of 24 Hours per Day (OEI-07-06-00621), October 2008.
37
  At least four States require enrollment of at least some of their Medicaid personal care attendants. Minnesota
enrolls all attendants providing both State plan and waiver PCS, regardless of whether the attendants are self-
employed or are employees of PCS agencies. Iowa enrolls all attendants providing waiver PCS. (Iowa does not
have a State plan PCS benefit.) For both State plan and waiver PCS, Ohio enrolls all PCS attendants who are not
employees of PCS agencies. Florida requires enrollment of attendants who are not employees of PCS agencies and
are providing services under the State PCS plan.
38
  OIG’s List of Excluded Individuals/Entities (LEIE) provides information to the health care industry, patients, and
the public regarding individuals and entities currently excluded from participation in Medicare, Medicaid, and all
other Federal health care programs. Individuals and entities who have been reinstated are removed from the LEIE.
Additional information on excluded providers is available at https://oig.hhs.gov/faqs/exclusions-faq.asp. Accessed
on August 15, 2012.
39
  MFCUs in Ohio, Washington, New Mexico, and Louisiana have notified OIG that they have made such
recommendations.
40
  Based on MFCU responses to the survey conducted through the US DHHS-OIG Public-Private information
Sharing Project, released through a Freedom of Information Act request in September 2011.
41
  Section 1915(c) Home and Community-Based Services waivers authorize States to provide long-term care in
home and community-based settings rather than institutional settings. Additional information on these waivers is
available at http://www.medicaid.gov/Medicaid-CHIP-Program-Information/By-
Topics/Waivers/Waivers.html?filterBy=1915(c)#waivers. Accessed on June 20, 2012.
42
  Based on interviews with State officials and recommendations submitted to States by MFCUs in Missouri,
Louisiana, Ohio, and Washington.
43
 Additional information on self-directed Medicaid services is available at http://www.medicaid.gov/Medicaid-
CHIP-Program-Information/By-Topics/Delivery-Systems/Self-Directed-Services.html. Accessed on April 24, 2012.
44
  An example of beneficiary submission of false claims for PCS is described in, “West Springfield Woman Pleads
Guilty, Sentenced in Connection with Stealing Over $130,000 from Medicaid,” May 3, 2011. Available at
http://www.mass.gov/ago/news-and-updates/press-releases/2011/woman-pleads-guilty-sentenced-stealing-
130000.html. Accessed on April 24, 2012.




                                                                                                                   23
